<html>
<title> - REAUTHORIZATION OF SCORE: DISCUSSION AND RECOMMENDATIONS FOR VOLUNTEER- BASED SMALL BUSINESS ASSISTANCE</title>
<body><pre>[Senate Hearing 112-881]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 112-881

                  REAUTHORIZATION OF SCORE: DISCUSSION
   AND RECOMMENDATIONS FOR VOLUNTEER-BASED SMALL BUSINESS ASSISTANCE

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 8, 2011

                               __________

    Printed for the Committee on Small Business and Entrepreneurship



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov






                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-743 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                      ONE HUNDRED TWELFTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                OLYMPIA J. SNOWE, Maine, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
TOM HARKIN, Iowa                     JAMES E. RISCH, Idaho
JOHN F. KERRY, Massachusetts         MARCO RUBIO, Florida
JOSEPH I. LIEBERMAN, Connecticut     RAND PAUL, Kentucky
MARIA CANTWELL, Washington           KELLY AYOTTE, New Hampshire
MARK L. PRYOR, Arkansas              MICHAEL B. ENZI, Wyoming
BENJAMIN L. CARDIN, Maryland         SCOTT P. BROWN, Massachusetts
JEANNE SHAHEEN, New Hampshire        GERALD W. MORAN, Kansas
KAY R. HAGAN, North Carolina
  Donald R. Cravins, Jr., Democratic Staff Director and Chief Counsel
              Wallace K. Hsueh, Republican Staff Director





















                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Landrieu, Hon. Mary L., Chair, and a U.S. Senator from Louisiana.     1

                           Witness Testimony

West, Meredith...................................................     3
Burlington, Sheree, owner and operator of Museware Pottery, 
  Manchester, NH.................................................     7
Evers, Ridgely, SCORE boardmember and a small business owner and 
  farmer.........................................................     7
Pages, Erik, President, EntreWorks Consulting....................     7
Pickett, Penny, Associate Administrator, Small Business 
  Administration for Entrepreneurial Development.................     7
Sedlin, Len, State Director for SCORE............................     7
Shear, Bill, Director of Financial Markets and Community 
  Investment at GAO..............................................     8
Weiss, Ron, District Director for SCORE in New Hampshire.........     8
Yancey, Ken, CEO, SCORE..........................................     8
Sanchez, Amy, professional staff with Senator Landrieu's 
  Committee staff................................................     8

          Alphabetical Listing and Appendix Material Submitted

Burlington, Sheree
    Testimony....................................................     7
Evers, Ridgely
    Testimony....................................................     7
Landrieu, Hon. Mary L.
    Opening statement............................................     1
Pages, Erik
    Testimony....................................................     7
Pickett, Penny
    Testimony....................................................     7
Sanchez, Amy
    Testimony....................................................     8
Sedlin, Len
    Testimony....................................................     7
Shear, Bill
    Testimony....................................................     8
Snowe, Hon. Olympia. J.
    Prepared statement...........................................     4
Weiss, Ron
    Testimony....................................................     8
West, Meredith
    Testimony....................................................     3
Yancey, Ken
    Testimony....................................................     8

 
REAUTHORIZATION OF SCORE: DISCUSSION AND RECOMMENDATIONS FOR VOLUNTEER-
                    BASED SMALL BUSINESS ASSISTANCE

                              ----------                              


                         TUESDAY, MARCH 8, 2011

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room 428-A, Russell Senate Office Building, Hon. Mary L. 
Landrieu (chair of the committee) presiding.
    Present: Senators Landrieu and Brown.

 OPENING STATEMENT OF HON. MARY L. LANDRIEU, CHAIR, AND A U.S. 
                     SENATOR FROM LOUISIANA

    Chair Landrieu. Good morning, everyone, and thank you for 
joining us for this morning's roundtable. We have had several 
dozen of these since I have become chair of the Committee, and 
we find them very, very helpful in building a case either for 
or against an issue that we feel strongly about.
    I really appreciate you all being a part of this rather 
informal but important meeting this morning to discuss the 
reauthorization of the SCORE program.
    As all of you know, this nonprofit organization started in 
1964. Originally, it was made up of retired executives. Now, it 
draws many others in a wide variety of industries providing 
counseling and technical assistance to promising businesses and 
mentorship to entrepreneurs across the country.
    Before we begin this morning, I just want to put a few 
things into context. I became chair of this Committee two years 
ago. When I took over, our country was facing one of the worst 
economic melt-downs, if you will, or slow-downs since the Great 
Depression. In the face of tightening credit markets and 
insufficient resources to assist small businesses, many of our 
businesses were struggling to keep their doors open.
    The primary federal agency for assisting them, which is the 
Small Business Administration, was itself struggling to keep up 
with great demand after suffering significant budget cuts in 
previous years.
    At that time, this Committee faced the challenge of 
increasing the Federal Government's capacity to assist small 
business, helping to ensure small businesses continue to serve 
their historic role as key job creators and innovators and 
doing all of this without substantially adding to our national 
debt.
    It was a significant challenge but not an impossible one; 
and through an aggressive legislative agenda, Senator Snowe and 
I rolled up our sleeves and went to work. We have met some of 
those challenges and we continue to meet others.
    While we are starting to see signs of improvement in the 
overall economy, the job numbers are up, our Committee has been 
a part of that revitalization although the Congress, as a 
whole, has taken some extraordinary steps, as we all know.
    So today we want to continue our efforts from the last 
Congress, focused on job creation, economic recovery. We want 
to do so in the most fiscally responsible manner. We would like 
to do so by leveraging private sector efforts and support, 
partnering where we can in smart ways, and that is what really 
leads us to this roundtable this morning.
    During the roundtable today, we will discuss the 
reauthorization of one such program, a program that has been 
noted for its effectiveness and efficiency. In this extremely 
budget-conscious environment, these kinds of partnerships might 
be an important step for us to take or to continue to take.
    So, our program that we are going to be discussing this 
morning is Service Corps of Retired Executives or more commonly 
known as SCORE.
    At the forefront of enabling more small businesses to grow 
and succeed, the SBA's entrepreneurial development programs 
like SCORE, as I say, serve as one model. Unlike other programs 
of its kind, however, SCORE provides its services through a 
network of over 13,000 volunteers that serve as counselors, 
advisors, and mentors to small business owners seeking 
assistance.
    In this way SCORE is leveraging private sector resources 
through the know-how of successful, experienced members of the 
business community utilizing their particular skill set and 
expertise.
    Today, we will hear from Ridgely Evers, a SCORE board 
member; Ken Yancey, CEO of SCORE. They will discuss the value 
of SCORE and some of their plans and objectives.
    According to a recent Gallup survey, SCORE has helped 
16,510 small businesses save jobs in 2009 and at least 90 
percent of SCORE's in-business clients remained in business in 
2010.
    According to the same polls, SCORE clients created 30,603 
jobs in 2009, and these same clients projected a total growth 
of an additional 155,000 full-time equivalent employees.
    There is a chart of the SCORE chapters that you all I am 
sure are very, very familiar with. Some of you run them and 
helped organize them, and we are looking forward to hearing 
more about that as this roundtable unfolds.
    To discuss the local impact and the value of the 
organization at the ground level, we have state SCORE directors 
with us, including Ron Weiss from, of course, the State of New 
Hampshire, who has done some very impressive work, Ron, and I 
appreciate everything that you have done.
    We also have Sheree Burlington, an actual SCORE client from 
New Hampshire. We are happy to have you with us. We also have 
Penny Pickett from the SBA and Bill Shear from the Government 
Accounting Office. We thank you all for being with us.
    Unfortunately, Senator Snowe was unable to make it for 
today's roundtable but Meredith West from her staff will help 
me moderate the panel this morning.
    So, I would like to turn it over to Meredith for some very 
brief remarks. This is a very easy operation here. After we 
introduce ourselves, if anyone has questions or comments just 
signal that way and we will have very open and informal and 
hopefully lively discussion.
    Meredith.
    Ms. West. Thank you, Chair Landrieu, for holding this 
roundtable this morning, and happy Mardi Gras to you.
    Chair Landrieu. Thank you. Rex is passing Gallier Hall as 
we speak, and I am sitting here happily with you all.
    [Laughter.]
    Ms. West. Indeed. As the chair stated, Senator Snowe is in 
a Finance Committee hearing right now and as well as running 
back and forth between a fisheries hearing on her Subcommittee 
on the Commerce Committee. That is, of course, an issue of 
great importance to Maine. So, I regret that she is unable to 
make it this morning.
    But we would like to recognize two of the Ranking Member's 
constituents from Maine, our SCORE Director Neil Elder and 
Nancy Strojny, over here on your left. Nancy is the vice chair 
of the Portland chapter, and we appreciate you all joining us 
here this morning.
    I have Ranking Member Snowe's statement to enter into the 
record.
    Chair Landrieu. Without objection.
    [The prepared statement of Senator Snowe follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chair Landrieu. Why don't we start even thought I have done 
brief introductions, why don't start, Ms. Burlington, with you 
and just give a little bit, name and 30 seconds of background. 
And then we will go around that way and start.
    Ms. Burlington. My name is Sheree Burlington. I am the 
owner and operator of Museware Pottery, a small business in 
Manchester, New Hampshire, and I have been working with SCORE 
for about four and half years.
    Chair Landrieu. That is wonderful.
    If you all push your talk button, it will come on red and 
speak a little closely into like mike might help.
    Ridgely.
    Mr. Evers. My name is Ridgely Evers. I am on the board of 
SCORE. I am a small business owner and farmer. I am also deeply 
involved in issues surrounding how to plug the capital gap for 
small business. I have been CEO of five Silicon Valley 
startups; and earlier in my career, I created a software 
program called QuickBooks.
    Mr. Pages. Good morning, Senator. My name is Erik Pages. I 
am president of an economic development consulting firm called 
EntreWorks Consulting. I am here actually in another guise as 
well, though. In addition to being a small business owner, I am 
also a senior fellow at the Rural Policy Research Institute's 
Center for Rural Entrepreneurship, which is a national 
technical assistance provider for rural communities that are 
trying to promote entrepreneurial development.
    Ms. Pickett. Good morning. I am Penny Pickett, and I am the 
Associate Administrator for the Small Business Administration 
for Entrepreneurial Development, and it is my honor to have 
this position because coming from small business I recognize 
how necessary and how important the technical and management 
assistance is to anyone starting a new company.
    Chair Landrieu. Thank you, Penny.
    Len, you are from Louisiana. I am sorry. I got that mixed 
up. Go right ahead.
    Mr. Sedlin. That is all right. You are excused, Senator. We 
will correct the record.
    Chair Landrieu. Thank you.
    Mr. Sedlin. My name is Len Sedlin. I am the State Director 
for SCORE in Louisiana. My background is engineering. And when 
I was first invited to consider SCORE, I said what do I know 
about business. I am an engineer.
    Surprisingly, I knew a fair bit, but I am pleased to be 
here and I am pleased to share our story of SCORE with the rest 
of the audience here today. Thank you.
    Chair Landrieu. And did I not meet you with a Raising Cane 
executive?
    Mr. Sedlin. You did, one of our success stories.
    Chair Landrieu. I hope we talk about that this morning.
    Mr. Sedlin. Raising Cane's is a restaurant that started 
with SCORE assistance in about 1998. Todd Graves was the winner 
of a national SCORE award this past September here in D.C. for 
being the outstanding socially progressive small business in 
the United States.
    And he started his business, he had the usual turn-down on 
his business plan. It would not work, never would work with one 
product in his restaurant, but he did not listen. But he came 
to SCORE, learned that you have to have some skin in the game.
    He went up to Alaska and did salmon fishing, got his money, 
came back to Baton Rouge, got with SCORE again, worked out his 
business plan, and got an SBA loan to help him get started, and 
the rest is history.
    He now has over 100 restaurants in 13 states, and he is 
opening in Arizona apparently two more sometime soon. Quite a 
success story.
    Chair Landrieu. That is terrific. That is a great, great 
story. We would love to hear more of those.
    Mr. Sedlin. And he employs more than 3500 people, I 
believe, through his restaurants.
    Chair Landrieu. Fabulous.
    Mr. Shear. I am Bill Shear. I am Director of Financial 
Markets and Community Investment at GAO. It is a pleasure to be 
here.
    My participation today is based on two pieces of work we 
have done. Recently, GAO came out with a report on overlap 
duplication and fragmentation in federal programs, and I led 
our effort on economic development programs.
    So SCORE was one of 80 economic development programs that 
was contained in that body of work which is still ongoing. The 
other is that we looked at SCORE to some degree on our work on 
Women's Business Centers in looking at uncertain coordination 
issues.
    So, I can state here today we have not done a direct audit 
of SCORE, but SCORE has been involved in this body of work that 
brings me here today.
    Thank you.
    Chair Landrieu. Okay. Ron.
    Mr. Weiss. Yes, I am Ron Weiss. I am the District Director 
for SCORE in New Hampshire. I have been in that spot for five 
years. I was doing venture capital startups, and I am presently 
a business owner, and I am also a GSA contractor.
    Mr. Yancey. I am Ken Yancey, and I am CEO of SCORE. I have 
been with SCORE for 18 years. Prior to that, in small business 
banking and other small business associations.
    Chair Landrieu. Thank you.
    Amy, why do you not introduce yourself.
    Ms. Sanchez. Sure. I am Amy Sanchez. I am professional 
staff with Senator Landrieu's Committee staff. And thank you 
all for joining us here today. I know it has been some work to 
get here, and I appreciate you being here.
    Chair Landrieu. Let us just jump right into questions, and 
I am going to address some of these questions to individuals; 
but if you all feel like you want to respond, please just put 
your cards up as I said, and we really want this to be an 
informal exchange.
    But I would like to start with Ridgely and Ken. Can you all 
provide a brief explanation of SCORE and the breadth of 
counseling and services that the organization provides?
    Ken, if you want to go first, and then I will turn it over 
to Ridgely. You know, in some specificity and you could give a 
couple of examples of individuals. Leonard just talked about 
one that we are very familiar with. Not in the specificity of 
the kind of counseling but a general story about success. But, 
why don't we start with that and if you could share with us 
some of your ideas.
    Mr. Yancey. I would be happy to. Thank you as always for 
your support and for holding this hearing. We appreciate 
everything that Senator Snowe does, and it is nice to see our 
longtime partners, the SBA here.
    Penny, we appreciate all that you and your staff do for 
SCORE.
    As all of you know, SCORE was founded by the SBA in 1964. 
Since that time, we have grown to over 13 and a half thousand 
volunteers serving over a half a million different businesses 
and individuals each year.
    We do this primarily in two methods. First is one-to-one 
counseling. It is available to anyone who would like that 
counseling on topics that relate to starting, growing, 
managing, buying, selling a business. The second thing we do is 
a series of workshops or seminars.
    Sometime back we looked at our organization and determined 
that we could be far more effective, far more efficient and 
provide much greater impact in the communities that we served; 
and in going through that review, we determined that it was in 
our best interest and in the country's best interest for us to 
rethink our delivery process, our counseling methodology, the 
focus of our volunteers.
    And in doing that, we wound up with a new strategic plan 
that many of your staff and you are aware of. That strategic 
plan is driven by a vision, a dream, a goal of helping to 
create a million businesses by 2017, a very ambitious goal that 
required us to think very, very differently about the way that 
we operate.
    In doing that, we made substantial changes. Those changes 
included listening much more effectively to our clients and 
their needs.
    As many of you know, we have been fortunate to partner with 
the Gallup organization through the generosity of one of our 
partners, Constant Contact. In order to measure our success, we 
need to determine what those outcomes need to be and agreed 
that we would look at, in terms of success, businesses formed, 
jobs created, jobs sales, and sales growth.
    We worked with Gallup to develop this survey, and the 
methodologies are fairly simple. We did a census of a hundred 
percent of our 2009 client base. We took that information and 
extrapolated it across the balance of the base.
    As you mentioned in terms of some of the impact, SCORE in 
2009 helped to create 68,000 new businesses over 31,000 new 
jobs at a cost to the taxpayer of the $229 per job about $102 
per business.
    In that survey and based on the research that was done by 
the Gallup organization, SCORE, as an organization, their 
clients return $107 to the Federal treasury for every dollar 
spent on the program. So, the return is excellent.
    We believe that we can do far more, and we are working 
diligently to continue the implementation of that plan. We very 
much appreciated your support through that process.
    As we listen to our clients, we have learned more from our 
clients in the last year than we have known in the last 46 
years. We find that they are interested in a consistent 
counseling methodology, a process that we could use that would 
help them generate the outcomes that they want which would be 
growth, starting, and so on.
    We developed a propriety counseling methodology with the 
help of the Delux Corporation Foundation. We have developed a 
new certification program, and we have had almost 600 
volunteers involved in that entire process.
    Today, we have over 500 volunteers certified in just the 
pilot and are excited to be able to launch that here very 
quickly.
    Our clients made it very clear and, quite frankly, our 
volunteers have made it very clear over time that they are more 
interested in long-term relationships.
    SBA research actually shows that small businesses who 
receive five or more hours of counseling do better and 
outperform those that do not.
    So our new methodology is focused on providing that long-
term relationship between client and counselor. Our new tag 
line is for the life of your business which supports the idea 
that we will work with them in a long-term fashion.
    The plan that we developed, as you know, we committed to 
you and to our stake holders that we would take this on and 
that we would achieve that. For the purposes of talking about 
the reauthorization, I have been told a number of times that I 
am quite foolish and a bit crazy and I think one of the words 
was ten-eared when I decided to, quite frankly, ask for more 
funding.
    Having said that, SCORE as an organization is one of the 
most efficient, effective job creation, business formation 
engines that the Federal Government presently funds.
    In this environment of slow-starting recovery, the need for 
SCORE is great. We would like to ask that in reauthorization, 
Senator, that you consider $13 million for SCORE in 2012, $15 
million in 2013, and $18 million in 2014.
    We will use this money to continue to implement all of the 
programs and initiatives that we have launched. In terms of how 
we would exactly spend that investment, what we would like to 
do is send $5.2 million directly to our chapters in the form of 
opportunity that goes to the districts, in addition to six 
full-time field support staff.
    You will hear from our district directors that one of their 
biggest challenges is expansion and having the staff to get out 
and actually engage clients beyond just the offices that we are 
in at the present time.
    We will use 7 percent of that for volunteer leadership 
education in our annual conference. As we work to share best 
practices and be a single, strong, nationwide organization that 
benefits from the value and the contribution of 13 and a half 
thousand volunteers instead of just the 20 or 30 that might be 
in your chapter, the opportunity to communicate and to share 
and to find best practices that we can then bring about 
successfully in other chapters is really critical.
    We will use a portion of that, 6 percent, on marketing and 
communications. We are building a remarkable infrastructure 
that is designed to deliver and impact outcomes, businesses 
started, jobs created, and so on.
    As we implement that, we need to work diligently to make 
more people aware that it is available, and to make it, quite 
honestly, say available to every entrepreneur in this country 
that needs help. And that can be done not only from a 
geographic perspective but also through the use of technology.
    We would spend $1 million of that on volunteer services 
which is going to support our recruiting. As you know, our goal 
is going to require us to grow our volunteer corps to over 
25,000 total volunteers.
    And those needs are going to be met by a strategy of 
beginning to recruit more within the ranks of our successful 
clients. With ten and a half million clients over time, we have 
the opportunity to find those that are interested, that have 
benefitted from the program and have the opportunity to give 
back and use them successfully in the deployment of the balance 
of our program on the whole.
    We will use a portion of it to continue the technology that 
we are rolling out. As your staff knows anyway, we are in the 
midst of rolling out the largest deployment of salesforce.com 
CRM system in the history of the world.
    To be able to do that with dollars would have cost us more 
on an annual basis than we are presently appropriated by the 
Congress. We were fortunate to be able to work with the Sales 
Force Foundation and to develop a process and an opportunity 
where we did not have to pay any licensing fees, and they have 
been very generous in their approach.
    We will also with this technology roll out a new financial 
management software for our chapters. I am sure it will be a 
surprise to most of you but our volunteers tell us that they 
did not join SCORE to fill out paperwork, you know, 
particularly that paperwork that is mandated.
    So these new systems give us an opportunity to provide a 
technology solution that limits the administrative burden. It 
will put all of these tools in an online environment, cloud-
based, that clients can enter their own data. It will be easier 
to track, and it will lessen that amount of volunteer time for 
administration so that we can, in fact, focus more on outcomes, 
outreach, and the needs of our clients.
    So, we are very excited about that.
    Chair Landrieu. That was a great overview and explanation.
    Ridgely, do you want to add anything to that?
    Mr. Evers. You know, there is not much to add to that but I 
am going to try. I got involved in SCORE because I was 
introduced to it in the context of a startup that I was running 
that was focused on small business, and I was blown away that 
it exists. What an extraordinary resource.
    Actually, let me also say, what an extraordinary resource 
this Committee is, and I appreciate very much your inviting me. 
I cannot tell you how impressed I am with all of staff.
    People outside of Washington have no idea how hard you 
work. It is often awesome.
    Chair Landrieu. Thank you.
    Mr. Evers. Having worked in a startup and watched people 
work hard, this is just a giant start up. It is amazing.
    SCORE was formed 50 years ago really to kind of put 
structure around two magnificent phenomena that are uniquely 
American. One is the entrepreneurial spirit of the country, and 
the other is the desire to give back.
    If you think about what SCORE does and the reason it is 
able to do what it does with as little money as it takes is 
because of being able to harness those two forces.
    The foundation on which it was established remains valid 
but everything else has changed. You know, it was founded in 
the middle of the 20th century to deal with a middle of the 
20th century small business environment.
    Small businesses today are dealing with a completely 
different set of factors than was true 50 years ago. So they 
have changed. The world has changed.
    And one of the things that impressed me about SCORE when I 
first became acquainted with it was their willingness to say, 
hum, I wonder if we should change which is fairly unusual to 
find in an organization of any age, much less one that has been 
around for as long as it has.
    And the question they kept asking was how can we get 
better, you know, how can we improve. And this is something 
that is refreshing. Having been involved with a number of 
nonprofits, SCORE is actually run like a business.
    The board meetings are business board meetings. In fact, 
there are startups that I run where I wish I had a board as 
business-centric and as business-focused as this board.
    So to kind of put the whole organization up on a lift and 
said how can we do better--and by the way, you did not ask us 
to do this, we asked us to do this--what we found is kind of 
our own scorecard.
    We have 370 chapters. That is good news. But we only have 
370 chapters. That means that there are huge chunks of the 
country that we are missing. We are missing rural areas. We are 
missing a lot of inner city areas.
    We are not as engaged with women, minorities, and so forth 
as we ought to be. We have committed volunteers, 
extraordinarily committed volunteers.
    Chair Landrieu. We actually have a map of your chapters.
    Mr. Evers. All you need to do is look at that. This is not 
the coverage map for AT&T, although sometimes it feels like it.
    [Laughter.]
    The volunteers are incredibly committed but we do not have 
enough support for them. While we are very responsive to our 
clients, we are principally reactive.
    So we looked at what can we do better, what is our 
opportunity, and we found that we can give a better quality of 
service, we can stay engaged, we could be truly everywhere, and 
we could serve everyone if we made some changes.
    So, we developed a plan, because we operate in business, 
not to make us bigger. That was not the intent. But rather to 
make us better.
    And I think it is very important to keep in mind. You know, 
again, I have been involved with organizations that are all 
about how do we get bigger.
    That is not this. This is how do we deliver the service 
that we all pledge to provide, and working backwards from that 
what do we need to have.
    So, the vision is to have one nationwide organization in 
the future whereas today we have really a confederation of 
chapters, and by putting together that one nationwide 
organization and growing the number of counselors from 12 and a 
half thousand when I started to 13 and a half thousand today, 
to 25,000 or more, we are going to have an incredible resource 
pool that every entrepreneur in the country will have access to 
regardless of where they are.
    Chair Landrieu. And these services are free to these 
businesses?
    Mr. Evers. These services are a hundred percent free.
    We are going to manage that growth. You know, it used to be 
the Service Corps of Retired Executives. We are actually 
begging you in the reauthorization to change the name to SCORE.
    We used to recruit from retired executives. A lot of our 
best counselors are retired executives. But there is an 
opportunity, as you will hear from Sheree, for our best clients 
to come back and bring to bear the benefits of their learning, 
because there is like someone who has walked a mile in your 
shoes to be able to sit down and tell you, you know, I get it, 
I understand what you are going through, and I think very 
importantly, Senator, to be counselors for the life of the 
business.
    So many businesses fail, yes, but in particular 
underperform because the owners are doing this for the first 
time and they make preventible mistakes.
    If only someone had been there to say, wait a minute, hold 
on, do not step on that. The second time down the path you know 
you do not step on that. But for most entrepreneurs this is 
their first trip.
    This all comes down to execution and with SCORE, you know, 
the beauty of SCORE is its people, 13 and a half thousand 
volunteers, an extraordinary organization.
    But what we need to do is give them backups, and we need 
better organization, we need training so you take someone like 
Sheree who is successfully running a business, and you train 
her not in how to run a business, but in how to deliver 
counseling.
    And you make sure that what we are disseminating is best 
practices gleaned from across all of our experience across all 
of the country, appropriate for the business that we are 
counseling, and then you use technology.
    There is this thing called the Internet, a series of tubes, 
that has a huge role in it; and then, because we are a 
business, measure everything.
    I have heard a lot of suggestions that you guys need better 
monitoring of how SCORE is doing and what SCORE is doing. You 
know what, any data you need, just ask because we have it, we 
monitor ourselves in every possible way.
    And finally, in terms of efficiency, SCORE is already by 
far the most cost-effective program in the federal arsenal. I 
am virtually certain of that.
    We have 17 paid staff for 13 and a half thousand 
volunteers. The American Red Cross, which is held up by many 
people to be sort of the benchmark that you use for looking at 
volunteer organizations, has one staff member for every hundred 
volunteers. So, we are only understaffed by 118 today.
    Ken has gone over the cost of job creation, the cost of 
business formation. Interestingly, the small business owner 
does not count as a job, so you can add another 65,000 onto the 
job creation numbers because they are feeding their family.
    If we were a consulting firm, which we are not, we are a 
counseling organization; but if we were a consulting firm, we 
would be one of the largest consulting firms in the world, 
managed by a staff of 17 people, extraordinarily dedicated 
people.
    We are providing effectively greater than 25 to 1 match on 
the federal dollar. It is sort of the ultimate public-private 
partnership because not only are our volunteers providing 
services that market value would be some three digit number per 
hour for free. But we also have great support from the private 
sector.
    The sales force deployment is a perfect example. A 13 and a 
half thousand seat licence for salesforce.com would cost way 
more than $7 million a year. Yet we are doing that with almost 
nothing.
    So why are we here? Obviously, it is in part for the 
authorization of where we have been; but it is really to say we 
have a plan particularly in this environment. I do not envy 
anybody in public office today because there are really hard 
choices coming.
    These are not going to be fun. If we learn anything from 
business, you know, the way you do it is not to say, okay, 10 
percent off of everybody.
    You have to make tough decisions about what you do and what 
you do not do. In some cases, you invest more and in some cases 
you stop something entirely. That is the right thing to do, and 
you are going to have to do that.
    SCORE is incredibly efficient, and we can grow it at a 
fraction of the cost of almost anything else you can do in 
terms of entrepreneurial development. But, we cannot do what is 
possible for us to do unless we have the funding to do it.
    The operating budget for SCORE has to come from the Federal 
Government because it has to be predictable, reliable, 
recurring. We get a lot of stuff done with private money that 
we put toward one-time expenses.
    For example, we have been able to pull forward a number of 
things, facilitation things, with respect to implementing the 
new plan by leveraging private dollars.
    We got something done this year that we would have had to 
do next year or the year after by using those private dollars. 
But the basic operation of SCORE has to be a Federal budget.
    Finally, as Ken said, you know, people have said you guys 
have got to be nuts. You know, what are you doing here asking 
for more money in this kind of climate.
    And I guess I would say in answer to that, I think we would 
be remiss if we were not here presenting to you the opportunity 
that SCORE offers the Federal Government to help small 
businesses as a way of dealing with what is certainly going to 
be an overall reduction in service level or an overall 
reduction in the service budget to mitigate the reduction 
service level.
    And finally, I think the most important thing for us all to 
recognize is we are here for two reasons. One is for small 
business owners, and we need to honor them, and the second is 
for our volunteers who we also need to honor, and they deserve 
our support. Thank you.
    Chair Landrieu. Thank you very much.
    I would like to ask anyone that wants to jump in with your 
best, you know, SCORE story. It can be good. And if you had a 
bad experience, please share that as well, based on what the 
CEO and board member have shared, and then I am going to get 
back to you, Mr. Shear, about your analysis of the 80 economic 
development programs. And if there is any one modeled like 
SCORE, I would like you to share with us based on the ratio 
from staff to volunteers.
    Ms. Burlington, do you have anything to add about your 
association with SCORE?
    Ms. Burlington. I have a story that I would like to tell 
you because I am proud of it. I am proud of my accomplishments 
as a businesswoman but I can honestly, truly tell you that I 
would not have been able to do it without the help of SCORE.
    I started my small business in 2005. I was a one-woman 
show. My business is hand-painted, personalized pottery which 
we sell to gift stores nationwide.
    When I first started my business, I did everything myself. 
I worked every day, every night, every weekend. People say how 
isolated you are as an independent, as an entrepreneur. It is 
worse than anybody can ever imagine. I do not know that anybody 
would start a business if they had an idea what they were in 
for in reality.
    So, I found myself reaching a point where I did not have 
any more physical energy left. I tapped all of my mental 
resources in terms of where do I take this, how do I keep 
myself going. And I had seen SCORE on a billboard driving years 
prior and I remembered it.
    I made the phone call and my counselor, John Post, answered 
the phone; and within a day, he was sitting on my couch with a 
cup of coffee, talking about my business.
    I had no one to talk to about my business. I mean, the 
isolation is so complete that my friends do not want to talk to 
me any longer because all I can talk about is business.
    So, to sit with a cup of coffee with a really experienced 
business person who was only focused on me, how to help me out 
of my dilemma or to help me move forward was just so freeing.
    So, when I started working with John, again I was a one-
woman show, and I was trying to figure out how I was going to 
survive being a business owner so that I could take it to the 
next step.
    One of the things he did for me was to just work on my 
business, not my business plan. I was already in business. He 
showed me how to market my business and develop it and then he 
took me to a bank and helped me get financing, because without 
financing I had a single kiln. I could not produce anymore. I 
could not hire employees.
    So, I was able to secure a line of credit and a loan which 
enabled me to buy another kiln and hire staff; and so, for the 
first time, I was not climbing those three flights of stairs to 
my studio all by myself. I actually had people helping me.
    We grew so quickly. In the first year of being in business, 
I tripled my business which sounds wonderful but it is also 
very exhausting.
    Our primary product was mugs. I sold a lot of $40 mugs to a 
lot of really expensive gift stores. When, in the fall of 2008 
which you all remember, it was horrible. When the banks started 
to fail, my business died.
    I was under my desk looking to see if my Internet 
connection was still on. There was no business at all. So, I 
was on the verge of bankruptcy. You know, I am making it sound 
like it was an easy road. It was not an easy road.
    I had people guiding me down a really rocky road, and I was 
frightened a lot of the time.
    So, I called my SCORE counselors. Now I have two who are 
wonderful men, and they came and I said, I think I am closing 
the doors. I think I am done. I cannot figure a way out of 
this. I have no business and I do not know what to do.
    So, one of the things that they said was, if they do not 
want your mugs, what do you have that they want; and we figured 
out that people get married more than once, and they have 
babies, and that business is never going to die.
    So, I had a small collection of product that I could offer 
to the people who were marrying and having babies and we hyper-
focused on that. And I finished 2010 up 46 percent.
    Chair Landrieu. Fabulous. I feel like clapping.
    Ms. Burlington. I do too.
    [Applause.]
    So, the counseling that I received from SCORE, to tap into 
this incredible group of minds, you know, all small businesses 
think that their business is terminally unique. No one has a 
business--painting pottery, who does that?
    I have a guy from HP who is counseling me on a pottery 
business. What I came to understand is it does not matter what 
your business is. It is a business. The business structure, the 
business recipes, they all exist.
    So, I started to evolve from being a designer of this 
pottery into a businesswoman. One of the things I find myself 
doing now is casting about who can I help.
    Well, of course, I will be a SCORE volunteer. When we talk 
about taking the volunteers, mentoring them and then asking 
them again to come to the table with their skills, I am an 
example of that.
    I am going to attend my first SCORE meeting on Wednesday 
when I get back to New Hampshire. I am excited about the 
opportunity to share what I know. Sometimes I am a little 
intimidated because I am surrounded by so many bright minds.
    But I know so much four and a half, five years being in 
business than I did when I started with this that I have a lot 
to share, and I have it because it was given to me, and it was 
given to me for free.
    When I talk to people about SCORE and tell them that it is 
free, you know, they look at me as if I have made this up. It 
is a free service and it is way worth more than whatever it is 
they are getting.
    Chair Landrieu. Well, it taps into what Ridgely said about 
this uniqueness, and it may not be completely unique, but what 
I do find to be prevalent here in the United States is people's 
willingness to give back.
    You travel in other parts of the country and the concept to 
them is a little bit foreign, this sort of civic 
responsibility. But here, and you expressed it beautifully.
    Leonard, do you have anything that you want to add from 
some of the people that you have seen in your chapter, or some 
of the stories that you wanted to add maybe to the transcript 
this morning?
    Mr. Sedlin. Certainly, I have some stories and I can speak 
for Louisiana SCORE. We have the happy situation of having 
tremendous demand and the challenge that we see is being able 
to satisfy that demand.
    I have traveled around the State. I have met with economic 
development people. I have met with chambers, CEOs, and so 
forth. And one of the first things I heard from a chamber CEO 
is ``where the hell have you guys been? We need you. Why have 
you not come to see us?''
    As a consequence of that, we have executed cooperative 
agreements with four chambers already in the State. In fact, up 
in Bossier City, before I got back to Baton Rouge, the SCORE 
logo was already on their website. That shows the receptivity. 
This was a couple years ago.
    We have some areas that are under served, central 
Louisiana, Alexandria.
    Chair Landrieu. I was just looking. You have what looks 
like six or seven chapters in our State, but the entire central 
part, there is no chapter there.
    Mr. Sedlin. Exactly. Alexandria is an interesting area. I 
met with the chamber CEO there and with other economic 
development people. We went out to the central Louisiana 
business incubator which is owned by the city of Alexandria. We 
held a couple of meetings there, SCORE meetings. I had a 
district meeting there.
    It was being built in part by LSU Alexandria. They were 
building classrooms. I was shown where the SCORE office was 
going to be in this business incubator in Alexandria. That was 
two years ago.
    Unfortunately, we have not been able to execute and that is 
the same situation in a couple of other areas of Louisiana. We 
have the demand for the product. They know the product. We are 
limited in my great staff of one, sitting here in front of you, 
in being able to execute.
    Chair Landrieu. So the additional resources would really 
help you to be able to hire----
    Mr. Sedlin. Field resources, absolutely.
    Chair Landrieu [continuing]. Field resources, one or two 
additional people to leverage the volunteers that you might 
have in Louisiana, as well as the demand for those volunteers.
    Mr. Sedlin. Exactly. The same type of demand encountered in 
the Bayou region around Homer and Thibodaux.
    I was recently in January at a quarterly meeting of the 
South Louisiana Economic Council, which is made up of the 
council head and representatives of chambers and other economic 
development agencies.
    And similarly at Nicholls State University, a former 
dormitory has been donated to SLEC and is being outfitted right 
now to house economic development agencies under one roof, and 
there is a SCORE office. Where is my SCORE entrepreneur center 
head for that area? But these are the opportunities that are 
available.
    We have developed alliances. Louisiana Economic Development 
is an example, and you know John Matthews very well, Senator.
    When we first started talking about SCORE services and he 
had dinner with Ken Yancey and myself when Ken came down for a 
district meeting, he heard the story of the strategic plan.
    Immediately, he jumped on board to support SCORE to where 
we have a grant from LAD of $25,000 to support Louisiana SCORE 
statewide with a focus of eventually building our capability to 
provide the Simple Steps program, the workshop program, as an 
entry point to their small and emerging business program 
development program under our LAD.
    That was stated to me more than once, that they are really, 
really anxious and have asked how quickly can you roll out 
Simple Steps. It was called Quick Start before.
    So, that is the happy situation. We have the demand. We, 
unfortunately, are not able to deliver on the schedule I would 
like to be able to deliver the product.
    Chair Landrieu. Well, we are going to work on that.
    Ron, what is your experience, and then I would love to get, 
Erik, you to jump in here with your consulting and give some 
comments from your perspective.
    But what does your situation look like?
    Mr. Weiss. We also see a demand issue. The situation in New 
Hampshire in the last few years has been a dramatic change in 
support for small business.
    The community loan funds and the economic development 
centers are no longer providing small business counseling. The 
Women's Business Centers have not been able to be funded by the 
State of New Hampshire and they have gone out of doing 
counseling. The SBA does not do counseling any more, and we are 
getting referrals from this SBDC.
    We are now the largest free business support in the State 
of New Hampshire. This is my fifth year as district director; 
and in the five years, we have actually doubled the number of 
SCORE volunteers serving in the community. We now have 220 
counselors in the State and we only have about a million three 
people of the State.
    It seems no matter how much we add we still have demands. 
In 2010, we opened up a new SCORE chapter in the Lakes Region 
of New Hampshire which is where people go. It is a resort 
community. We opened it up from nothing. In one year, we have 
22 counselors and some of the best counselors in the State.
    We are in our southern tier, and I should explain that to 
you. The State is a combination of both urban and rural 
communities; and the lower tier of the State which borders 
Massachusetts, we have big chapters. We have chapters as large 
as 70 some odd counselors.
    And in our upstate chapters, the Mt. Washington Valley, 
like Sunapee area and even in the Lebanon, New Hampshire area, 
we are talking about 25 or 30 counselors, but they service a 
rural community.
    So, the demands throughout the State are very different. In 
the big centers, we have an adequate number of counselors to 
handle it; but no matter what we see, we have a growing demand 
for SCORE services.
    And we are not selective in taking on people. If clients 
have problems with business, it does not matter to us whether 
they are going to be a contributor to State revenue in the next 
year, it is a matter of keeping them in business and making 
sure they get the kind of service to keep it all going. We do a 
lot of that.
    To give you some statistics, we did roughly about 6000 
client contacts in the State of New Hampshire in the year 2010. 
4500 of those were actually case activities and 1500 were 
sponsored workshops. The largest workshop series we do is on 
Internet marketing.
    This year, year to date, we are at 20 percent above our 
performance numbers of last year, and there is just a continual 
growing need for SCORE counseling services. We have a good 
story to tell. I mean, we keep businesses going and we create 
jobs and keep jobs.
    I did want to say one thing. Last year, our total volunteer 
hours in the SCORE organization of New Hampshire was 19,000, 
almost 20,000 hours. We get a supplement of about $30,000 a 
year from the SCORE organization and that comes down to a sum 
of about $1.55 an hour for a SCORE volunteer, and I do not 
think there are too many consulting avenues where you can get 
that kind of service for that kind of price. I think it is a 
great return on the U.S. government's investment in SCORE.
    We also, because we have had such success, business success 
here in New Hampshire, we have also been doing some of the 
pilot programs on the new SCORE program, and I would like to 
tell you a little about the success we have on that.
    Chair Landrieu. Before you do, let me just welcome Senator 
Brown who joined us this morning. He has been at an armed 
services meeting so I really appreciate him stopping in.
    Senator, this is a very informal roundtable discussion 
about the reauthorization of SCORE. We are hearing some 
remarkable stories about the leveraging power of this 
organization, and I am sure you are familiar with it in 
Massachusetts.
    Did you want to say anything or wait for Mr. Weiss to 
finish?
    Senator Brown. I came to listen. I am bouncing back and 
forth. Thank you.
    Chair Landrieu. Thank you.
    Ron is the director of the SCORE chapter in New Hampshire.
    Mr. Weiss. We also border on the Massachusetts border.
    Senator Brown. You do?
    [Laughter.]
    Mr. Weiss. We are close by.
    By the way, four of our chapters service adjoining states 
because it is a relatively small area; and for us, it does not 
make any difference where the client comes from. We service the 
client.
    Chair Landrieu. Senator, if you look at the map up here, 
you have a big cluster up there your way. All the SCORE 
chapters cluster up in the northeast.
    Senator Brown. What is the interaction between the 
Massachusetts and New Hampshire chapters?
    Mr. Weiss. We get along absolutely great. We are giving 
referrals to one another. We had somebody from California who 
wanted to open up a big business in New Hampshire because they 
thought it was going to be a HUBZone.
    It turned out that people in the Lowell area made a better 
offer than the people in the Nashua area, and so we helped them 
move down there.
    I think she has a business going. It is a semiconductor 
assembly business, and it is growing quite nicely. They are 
still using New Hampshire counselors. We are here to help 
people. The State line does not mean anything.
    Chair Landrieu. That is good to hear. And you wanted to 
share something. Ken, you had something you wanted to add.
    Mr. Yancey. If I may, Senator Brown, our district director 
for Massachusetts, Jack Calkins, is here in the back and has 
been with us for the day as we prepared, and we had a nice 
visit with your staff yesterday. Thank you, and I hope to be 
able to meet with him.
    Senator Brown. Thank you.
    Mr. Weiss. I was going to say we have been fortunate to be 
an early State trying out some pilot aspects of the new 
program, and I just would like to share a little with you about 
some of the success we have had.
    One of the biggest stories we hear from most clients when 
they find us where have you guys been. We say it is the best-
kept secret in New Hampshire; and despite that, you know, we 
see a lot of people coming in.
    We have formed this year a strong affiliation with the 
chambers of New Hampshire. We are participants in something 
like 12 to 15 chambers around the State.
    And by the way, these are not fee memberships for us. We 
actually have to pay full fees for those. We have partnered 
with the State Department of Resources and Economic 
Development, which is called DREAD. I cannot imagine why they 
called it that, but we have also partnered for the first time 
in an outreach area with the New Hampshire Timberland Owners 
Association.
    There are people who make their living, it is a very large 
business for the State of New Hampshire. It is also one of the 
highest export items, and we are now providing business 
counseling to people who have been trained in forestry and are 
now worried about biomass products and wood products, and we 
are providing services for that.
    The other thing we have done is partnered with banks, not 
so much big banks, but small banks. Economic incentives for 
cities who give funding for small business because there is no 
money to be had from the large banks throughout the United 
States.
    In summary, we are this year based on an FCC study, we are 
estimating that some 75- to 80,000 small businesses in New 
Hampshire are not using the Internet to full business 
potential, and in early June, we are providing a free statewide 
conference on bringing Internet to small business.
    It is a program being funded by the SCORE organization. The 
problem we have is that the small businesses in the northern 
part of the State are going to be difficult to get to, and so 
one of the problems or challenges we have is to address how do 
we get the same kind of conferencing, the same kind of 
information for the small businesses in the northern part of 
the State.
    Chair Landrieu. Try to wrap up because I want to get to 
Erik.
    Mr. Weiss. We have an opportunity to open two or three more 
chapters if we had the manpower and funds to do that. We want 
to bring our Internet counseling to areas which are not local 
and which we can do things like Skype counseling, and that 
takes money and dollars, and we are looking forward to the new 
program as being capable of providing the funds for what we 
need to grow.
    Chair Landrieu. Thank you so much.
    Dr. Pages, did you want to add something from your 
perspective?
    Mr. Pages. Yes. Thank you, Senator, and thank you, Senator 
Brown, as well.
    Yes, I think I will just second this point about sort of 
the intensity of demand and just point out that it is really, 
it is even more of a problem in rural areas, and several of the 
other speakers have talked about that.
    Our group, the Rupri Center for Rural Entrepreneurship, we 
probably worked on rural entrepreneurship development 
strategies in every state of the United States.
    Kind of two things we have learned about that is one you 
have got to have kind of a comprehensive, systematic approach, 
and the second thing is that what really matters for rural 
entrepreneurs are what we call soft factors, really is kind of 
a shoulder to cry on, this coaching, this mentoring, this peer 
networking.
    When you talk to rural entrepreneurs, that is the thing 
that they are most hungry for; and unfortunately, at the same 
time that is the service that is least available to them, to a 
rural entrepreneur.
    I have owned a small business here in the D.C. metro area 
for about 10 years. I know I can go to SCORE, but I can also go 
to many other places to get peer networking, to get coaching 
and mentoring. There are lots of availability of that service 
here.
    In rural communities, that is really not the case. Really 
SCORE and the Small Business Development Center network, that 
is kind of the core part of that soft infrastructure in rural 
America.
    You do not have a lot of, it is really sort of a scale game 
and numbers game. You do not have quite as many entrepreneurs 
in an absolute sense. You do not have as large a population. So 
these sort of places where you can find peer entrepreneurs, 
places where you can find a coach, where you can find a mentor, 
they just do not spring up out of thin air in rural America.
    Where they are in place, and they are not in many places of 
the United States, they are there because of SCORE and because 
of the Small Business Development Center networks.
    And I would hazard to say that as we think about expansion 
of SCORE and sort of just generally about providing technical 
assistance to entrepreneurs in rural America, I would suspect 
that you are going to see a big increase in demand in rural 
communities over the coming five to ten years.
    And I think there are a couple of factors going on. One, we 
know that startup rates and self-employment rates in rural 
America are higher. Now, certainly the absolute numbers are 
smaller but in terms of the proportion of the population that 
is involved in self-employment is much higher in rural America 
than it is elsewhere in the United States.
    In fact, there are some projections that show that up to a 
third of the workforce in rural America could be self-employed 
in the next five to ten years. We just have a huge base of 
entrepreneurs, aspiring entrepreneurs, sort of potential fast 
growing businesses in that base of the self-employed in rural 
America.
    I think the other thing that is going on is that rural 
communities are rethinking what they are going to do in terms 
of economic development. It used to be we are going to give you 
a tax break, we are going to give you a building, come on in, 
move a branch manufacturing plant in our community. What people 
would call the buffalo hunt.
    Well, we know because of globalization and technology 
change many of those firms are going overseas when they used to 
go to rural America.
    So rural communities around the United States are getting 
much more aggressive about using entrepreneurship in growing 
home-grown businesses. It is kind of the core of their economic 
development strategy.
    So in effect, you are increasing demand. You are pushing 
demand through these economic development strategies. You have 
got to have some kind of service or some kind of support for 
these entrepreneurs and these businesses that are going to be 
coming through the pipeline in rural America.
    The demand is not being met now, and the demand is going to 
grow significantly over the next five to ten years. So I would 
encourage you to look at different kinds of strategies and 
approaches to working in the rural communities.
    Chair Landrieu. You have worked in a number of different 
positions at the federal level. Before your current position, 
you served as policy director for the National Commission on 
Entrepreneurship. You were an official advisor to the White 
House and small business conference.
    Is there any other national organization, like SCORE, that 
leverages the dollars as effectively as we have heard this 
morning, to your knowledge, and what do you think the value of 
an organization like this is for the country?
    Mr. Pages. Well, I think very few have the sort of leverage 
numbers that SCORE presents, although I will tell you that all 
of the federal economic development agencies really perform 
quite well in terms of leveraging.
    So you talk about the EDA, talk about the Small Business 
Development Center, talk about overall SBA investments. All of 
them, when you compare that to other kinds of economic 
development strategies, they provide significant bang for the 
buck.
    I think the benefit of SCORE and sort of any kind of hands-
on technical assistance is when you talk to entrepreneurs, they 
do not want to fill out a lot of paperwork, they do not want to 
have to go from one agency to another agency to another agency 
to get the kind of package of support they need.
    They want a comprehensive solution, and so it is not so 
much that the SCORE counselor kind of fixes everything for 
them, but he or she kind of serves as their network hub. So I 
can go to the SCORE counselor, and he or she can say, let me 
help you get capital here, let me help you get market expansion 
services here, let me help you get human resources services 
here.
    So it is kind of that packaging is what an entrepreneur 
wants. They do not want to have to go to ten different agencies 
to get ten different kinds of support.
    So that is the real secret of SCORE and programs like that.
    Chair Landrieu. Mr. Shear, let me ask you, and then I would 
like Penny, if you would jump in here, but you said that you 
reviewed about 80 programs you testified in your opening 
comment.
    How many other programs like SCORE in terms of leveraging 
and efficiency did you find? You said they were duplicative. 
Are there any that come to our mind that are similar, not 
similar, like SCORE?
    Mr. Shear. To answer the question on similar, I would say 
generally the answer is no. We certainly see a lot of use of 
nonprofits involving a lot of programs but not on the model of 
SCORE. We do not see a network of a vast number of volunteers. 
In terms of the efficiency of leveraging, we are not at a point 
yet to really talk about that.
    And I want to emphasize that we do see potential 
duplication among the 80 programs but we are at the beginning 
stages of looking at that.
    There is certainly overlap among programs. There is 
certainly some fragmentation of programs, and I was very glad 
that Erik brought up the point, you know, sometimes a business 
owner needs somebody to put things together.
    And a big focus of our work, so in terms of our 
interactions with Erik and Ken and others at this table over 
time will not just be about how SCORE is run but it will be 
about how can we facilitate a more efficient distribution of 
economic development resources.
    So the programs that come the closest to SCORE are really 
the other SBA programs, Women's Business Centers and SBDCs. And 
as we know, the funding mechanism, the accountability 
mechanism, the oversight by SBA is just different for those 
programs.
    Chair Landrieu. What jumps out at me when I focused on what 
SCORE does and I have known about it for years and years but 
just recently refocused, is that it is the sort of organization 
of all of these out there that are sort of the connectors and 
the glue that can kind of hold everything together.
    At least for the SCORE volunteers, they are familiar with 
the landscape and they can direct a business owner, you know, 
like Ms. Burlington, through the several hurdles and barriers 
with the limited amount of trouble or frustration which seems 
to me to be sort of missing as you are trying to keep these 
puzzle pieces together.
    Ridgely, did you want to add anything?
    Mr. Evers. Yes, just quickly. We have talked a bunch about 
the needs of the rural communities, and I live in a rural 
community. I actually am a farmer.
    And the geographic gaps are real and we cannot wish them 
away. It is going to take effort to address them. One of the 
things that I think is the most exciting about SCORE is that 
under the new strategic plan even where we do not have a 
physical presence, we can bring to bear the entire power of the 
SCORE organization to support an entrepreneur.
    If somebody is growing potatoes in western Sonoma County, 
we can bring to bear somebody who knows about growing potatoes 
from Iowa or from Idaho.
    The other thing is what this new model provides is the 
ability to create virtual centers of excellence within SCORE. 
So that if you are a counselor in New Hampshire and you have 
somebody who, heck, if you are a counselor in Maine, let me go 
even further.
    If you are counselor in Kentucky and you have got somebody 
who wants to grow organic vegetables, you know, Maine has been 
growing phenomenal organic vegetables for a long time, and you 
have got farmers there who figured out how do you get to 
market. Those people are part of SCORE. We can bring those to 
bear for the farmer in Kentucky.
    Two other quick points. One is to Mr. Shear's point and 
also to Erik's. The whole model of SCORE in this new 
environment is that the person with whom you engage, with whom 
Sheree engaged, for example, becomes the relationship manager 
into the whole, not just the SCORE organization but whole 
fabric of economic development.
    To say, you know what, in this particular case, the person 
you need to talk to is not part of SCORE. They are over here. 
Or they are part of SCORE but they are in another state.
    And then the other thing is this whole concept, and I am so 
glad that you are here, Ms. Burlington, because this is the 
poster child for how we want to do things going forward.
    When you come into SCORE and you first engage, we say, you 
know what, we are so glad you are here and we understand that 
you are here because you cannot make payroll on Friday, and we 
are going to help you with that, but we are going to stay with 
you, we're going to stay with you across the life of your 
business. And if you turn out to be one of our successful 
entrepreneurs, we are going to come tap you and we are going to 
ask you to give back.
    That is an incredibly powerful mechanism for growing this 
organization very, very efficiently and very powerfully.
    Chair Landrieu. Penny, would you like to add anything? And 
if you all do not mind, I am going to slip out, turn this over 
to the able hands of Amy and Meredith, and then Senator Brown 
may have a question or two.
    Senator, this is a roundtable, very informal, not like a 
regular hearing. You can jump in at any time. There are some 
questions the staff has.
    Senator Brown. Thank you.
    Chair Landrieu. Go ahead if you want to ask a question or 
two and then we will get to Ms. Pickett.
    Senator Brown. She can start. You can head out. I am 
waiting for the word that I have to go.
    Chair Landrieu. Okay.
    Ms. Pickett. Thank you. The discussion has been 
fascinating, and I would say at first blush maybe there is some 
thought that the programs that we oversee at SBA, Small 
Business Development Centers or Women's Business Centers, and 
certainly SCORE, people at first blush tend to think that they 
are fairly similar.
    As we dig down, we find that each of these programs has its 
particular niche, its organizational structure, and it helps 
clients in a very distinctive way.
    If entrepreneurs could wear one size, if one size fit all, 
then it would be easy. Your job would be easy. My job would be 
easy, and we could just simply lay this out.
    The best thing about entrepreneurs is that they are 
innovative, they are different, they are unique. The worst 
thing is they are unique. So, we reach them in many ways.
    We are very proud of SCORE. I think Ken mentioned very 
client focused. We cannot lose sight of the fact that our 
client is the small business owner at whatever stage they are.
    Ridge mentioned entrepreneurial spirit; and SCORE has shown 
and demonstrates, and daily demonstrates, the most amazing 
entrepreneurial development, entrepreneurial spirit, the 
willingness to constantly reinvent, to look at the market, to 
change its approach.
    This is one of the most exciting things about SCORE is it 
is not stagnant. It is going to change with its clients and 
with the market situation.
    Ms. Burlington, you mentioned the phrase that caught my 
attention. You said the group of minds that came together to 
help you was significant.
    I think what SCORE captures is we do not lose the 
experience and the knowledge and the education of huge array of 
business people that have led this country.
    It may be slowing down. Some may be actually retire, some 
may be cashed out entrepreneurs. But SCORE captures that. We do 
not have that brain drain that could be really, really 
detrimental to our entire economic system.
    So, SCORE captures that, recycles it, puts it through you. 
You have a fresh approach. You have a fresh business, and you 
pass it along because entrepreneurs are incredibly generous not 
only with their ideas, with their time.
    So in looking at this program, we are very, very pleased 
because it is very efficient. It does change, and it does 
really, really make the difference for clients in every small 
business at all time.
    Chair Landrieu. Thank you. Does anybody want to add 
anything?
    [No response.]
    Ms. West. I would like to follow up on Bill's comments 
related to duplication and coordination. In November 2007, as 
you mentioned, the GAO did a report on the Women's Business 
Centers in particular and, in the that report, pointed out that 
there was a lack of coordination between the SBA's resource 
partners, the Women's Business Centers, the SBDCs, and SCORE 
chapters.
    Yesterday in speaking with our SCORE leaders in Maine, we 
heard that in some chapters there is great coordination between 
SCORE and SBDCs. Often SBDC counselors will lead workshops and 
such in SCORE chapters. But in other areas, there is really no 
coordination at all.
    Can you speak at all to the GAO's work on that and have we 
seen any progress in improved coordination since then? And then 
maybe Ms. Pickett can talk about the SBA's role in pushing 
these resource partners to better coordinate their services.
    Mr. Shear. Thank you for the question.
    From our Women's Business Center work, specific to the 
Women's Business Center program, we pointed to a couple areas 
where SBA has made progress and implemented recommendations.
    It is defining the role of the district office technical 
representatives and some other matters dealing with what is 
required of the Women's Business Centers.
    Our report contained a third recommendation which had to do 
with trying to identify promising practices in coordination 
among the three programs, and given that recommendation, 
Meredith, your comments really bring that to life.
    We see places where coordination occurs very well in 
certain geographic areas, but we also observed areas where it 
did not occur, and we know the programs are supposed to serve 
different niches and, to a large degree, they do.
    After we completed our report, there seemed to be an 
eagerness to move forward on all three recommendations and 
agreeing with those, including the coordination issue, in using 
some type of tools which could include an Internet site to try 
to facilitate such coordination and identify promising and the 
best practices, and that is one where there has been a little 
bit, from our interactions with the agency, some stagnation in 
not moving forward.
    So, that we still list as being a challenge for the agency 
to address.
    Ms. Pickett. I will look into that because I was not aware 
of that particular part about the Internet. However, I will say 
I think there is much more coordination support. I think the 
Administrator has talked about linked leverage online, and that 
means our resource partners as well as with the public partners 
throughout the government.
    So, an example that has been absolutely phenomenal, when 
the FCC was rolling out its broadband plan, the first person to 
step up, they said small business has got to be part of this. 
The first person to step up was Ken Yancey.
    He said this is great. He understands the technology. How 
can we help? He has actually put together, through SCORE has 
led this effort to collaborate with the FCC to develop training 
for small businesses in the value of broadband, getting online, 
how they can market, how they can use this as an international 
tool.
    He has also taken the approach that broadband is a huge 
small business opportunity. Somebody has got to do the 
installation, somebody has to do the wire, somebody has to come 
up with the next packet switching device that makes it faster, 
cheaper, and easier.
    SCORE has led the way in really doing a huge effort, 
bringing in partners from the technology world, develop this 
phenomenal content.
    And the first thing he did was he organized and developed 
the content, and he turned around and said, okay, now this is 
going to all the Women's Business Centers. They need the 
training. Our SBDC partners, here is the content. So, I think 
that is a wonderful example.
    We are rolling out the women's procurement rule, and I know 
that our leadership has taken the chance to train all of our 
partners on that kind of thing.
    These examples exist. Our district offices have played a 
huge part in making sure that our SCORE volunteers have a place 
to sit. Our SBDC people are there. We saw this in Deepwater 
where everybody worked together to save small business. We have 
lots of examples.
    Ms. West. Okay. Penny, my specific question was about how 
the SBA's resource partners are coordinating and how we are 
preventing duplication between them. So, Women's Business 
Centers, SCORE, and SBDCs.
    The agency's own cooperative agreement with SCORE says at 
the very beginning that one of the objectives is to ensure that 
these resource partners are working together, collaboratively 
to help the small business client in their area.
    Can you speak specifically to how the SBA is conducting 
oversight of that as part of your grant management process of 
the SCORE grant and your management of the other programs?
    Ms. Pickett. Well, that comes in our quarterly reports not 
only anecdotally but in the data. I can illustrate again. The 
Small Business Jobs Act, passed in September, provided 
additional grants specifically to Small Business Development 
Centers.
    SBDC in Atlanta has contracted with Women's Business 
Centers to deliver services and outreach to under served women. 
This was their own collaboration. It is the kind of thing that 
gets reported. And the SCORE person in Atlanta is overseeing 
this kind of thing.
    We continue to monitor. I can provide more examples of how 
they actually reach out to each other and then report back to 
us. This is what their programs are.
    Ms. West. So, it sounds like they are doing a lot on their 
own to coordinate in that we hear these anecdotal stories of 
that happening. But it is the agency's responsibility to 
oversee the grant, according to the Small Business Act and in 
your cooperative agreement to ensure that they are 
coordinating.
    What kind of metrics do you have to evaluate specific 
coordination between these entities? You know, one thing we 
heard from our Maine folks yesterday is sometimes there is some 
competition between SBDC counselors and SCORE counselors over a 
particular client that has a need. Who is going to help them 
and who is going to get credit for it? How does the agency 
track those metrics, evaluate who gets credit for providing 
those services, and preventing duplication, while encouraging 
coordination at the same time?
    Ms. Pickett. All of our partners under the agreements are 
subject to financial and programmatic reviews. That is a given. 
They are done. Our program managers are involved with almost 
day-to-day contact following up, are they meeting the 
requirements.
    The measurements in terms of how we record actual 
collaborations is probably not something they can check off on 
the approved forms that they do.
    However, they worked out very closely how the client gets 
recorded, is the number of hours they spend with the SCORE 
counselor versus the number of hours they may spend with an 
SBDC. That has got to be on the forms, and it is going to 
increase with the international trade.
    I would have to check with our program managers and give 
you many more details about how they record it anecdotally or 
how they might credit each of our partners with other 
collaborations. It is not something that fits neatly into a 
check-off box.
    Ms. West. Okay. Given GAO's report last week and our 
concerns here in the Committee about duplication among these 
programs, this is something that we would like to continue to 
talk with SBA about in terms of how, specifically, we are 
preventing duplication of these programs. Thank you.
    Ms. Pickett. I would be glad to talk with our program 
managers and can provide you with more information as we will 
with Bill as well.
    Ms. Sanchez. Bill, can you tell me, are you aware of any 
kind of, you know, in these reports that you do, and I do not 
know, any mechanisms in which you provide recommendations for 
departments and agencies to quantify, I guess, qualitative 
relationships? Specifically, how you define ``cooperation''? 
How you define the ability of one entity to work and, I guess, 
work well within the other?
    Do you have those kinds of recommendations and do you 
provide those regularly or do you find those available?
    Mr. Shear. What we have done, and please tell me whether 
this is responsive to your question, is we have looked for 
criteria for effective collaboration between programs and 
agencies.
    And this especially came up, and Erik pointed to our work 
looking at collaboration between SBA and USDA's rural 
development.
    So there are certain qualitative factors that we take into 
account, just having what is the mission procedures, some 
commonly understood responsibilities and accounting mechanism 
and some metrics to say what is being achieved.
    So, if you have two agencies getting together to provide 
some training, it could be as much as how do the recipients of 
that training view the value of the training.
    So, to a large degree, the metrics can resemble the types 
of metrics that we look at generally for program management but 
it is looking at it in a broader way.
    So, we, as the agency, have applied that model to a number 
of venues, including economic development.
    Mr. Pages. I would just add two tools. In my business, I do 
a lot of program evaluation and not necessarily collaboration 
across federal programs but I think some of the same 
mechanisms, the same issues certainly fall in place there.
    Two metrics that we find pretty powerful that can be used 
to capture collaboration, and they are only going to capture a 
small portion of the picture, is referrals across agencies. 
Once you start tracking that, people will start responding to 
that.
    The other one is how many different agencies or how many 
differ programs does each customer utilized. And if a customer 
utilizes a number of different programs, that is a positive 
sign that there is collaboration occurring, one potential sign 
that there is collaboration occurring across agencies.
    Ms. Sanchez. Ken, do you know if SCORE keeps track of that 
information or, Penny, do you know if you keep that information 
as to where you are referring to, let us say, I mean, you 
mentioned referring to other entities and being that hub.
    Do you have anything to add to that?
    Mr. Yancey. I can. Today we do not track referral 
relationships. The deployment of the salesforce.com CRM that 
will occur a little later this year is going to allow us to 
track that.
    We believe in our initiative that we call shoe leather 
marketing. The important thing for our chapters to do is to 
create referral relationships with other organizations within 
the community that are serving similar clients, maybe with 
different services, maybe with the same, and that those 
relationships be written, monitored, have specific metrics.
    It is not good enough to say that you partner with the 
chamber or you partner with SBDC. You need to have an active 
engagement manager, for lack of a better term, to ensure that 
these things are happening, that we can stay on top of it, and 
that everybody can benefit from the value that both 
organizations bring.
    So, the answer is no, until April 29th.
    Right, Devin?
    Ms. Sanchez. Great. Thank you.
    Penny.
    Ms. Pickett. Very briefly, the CRM that Ken is referring to 
is for SCORE. That is not an SBA system. But also, currently 
our 641 does not capture that data. We have plans to convene 
work groups, and we have already done this on previous things 
such as client definitions.
    The reporting form that all three partners use, any 
changes, of course, have to go through OMB for clearance and 
that sort of thing.
    Ms. Sanchez. Ridge, did you have something? And then Ken.
    Mr. Evers. Yes. Now, I am not speaking as a SCORE board 
member just as a J. Random citizen.
    One of the things that I have observed is that there is 
tremendous unevenness in the quality of service delivery 
independent of the entity, of the ED entity, whether it is 
federal or state or local.
    And I will tell you specifically in my backyard the SCORE 
chapter is not our strongest by a long shot. The SBDC in that 
area happens to be terrific.
    I can also tell you without naming names that there are 
other places where exactly the opposite is true, and I think 
that it is important to track this, Meredith, to your point. I 
think it is really key that we pay attention to what kind of 
referrals are going back and forth.
    But I think you are going to get two things out of that, 
and it is important to recognize going in that there is going 
to be two kinds of data revealed.
    One is how actively are the organizations overall bouncing 
stuff back and forth. But I think it is also going to shine a 
light on where one or more of us is deficient, and I think that 
is really key to pay attention to.
    And one of the things that I am excited about with the 
SCORE model going forward is the idea that every counselor in 
SCORE is going to be certified because that is one of the ways 
that you get at that consistency of service delivery.
    What you do not measure does not get done except by 
accident. We are measuring now the quality of service delivery; 
and we will be able to tell on an individual counselor level 
because the feedback loop through the sales force with the 
client, hey, you know, Ron needs some help here in this 
particular area and Len is doing a great job in this kind of 
counseling but could use some help in that kind of counseling.
    This is an incredibly powerful infrastructure that is being 
put in place specifically to address what really matters which 
is the success of a client.
    Mr. Yancey. Just very quickly and to build on Ridgely's 
point, what we find in communities where we have an SBDC, 
SCORE, and a Women's Business Center is that the closer we get, 
the more evident the strengths and weaknesses are, and the more 
easily we can refer clients to the stronger resources.
    And when we go at it with the client's best interests at 
heart, the collaboration is remarkably powerful, and we see it 
in a lot of markets.
    In upstate New York, in Buffalo it is common for our 
counselors to do a good bit of counseling at Women's Business 
Centers. In Pennsylvania, the Kutztown SBDC has a remarkable 
relationship with our chapter and they actually collaborate on 
delivering the fast track program within that community.
    I can give you more examples of how it works when we are 
close and we do not think about the competitive situation. I do 
not want to put words in my SBA's colleague's mouths; but with 
influence from Senator Snowe and Senator Landrieu a number of 
years ago as we worked through the EDMIS process, one of the 
things that was determined that it was appropriate when 
together counseling a single individual that both organizations 
get credit.
    So it eliminated that competitive piece and encouraged 
collaboration and an ability to add value by bringing to bear 
the best talent regardless of where it is.
    Another quick example, in Louisville, Kentucky, they have a 
traffic the SBDC and they do a lot of loan packaging. They are 
better at finding capital for all sorts for small businesses 
than anybody probably in the region.
    SCORE does not do that anymore because why would we 
compete. We do not have the capacity. Everybody that needs 
financing, we send them to the SBDC. When SBDC sees somebody 
that they are not able to or believe there is a better use of 
their time, they send them to us. It is a great collaboration 
and one we are proud of, and we would love to replicate it 
beyond those few markets.
    Ms. Sanchez. So to simplify what you are saying is, when 
everyone shares the common goal of assisting and focusing on 
the client, cooperation necessarily follows.
    Mr. Yancey. It is magic.
    Ms. Pickett. Very quickly, and I think within the Office of 
Entrepreneurial Development, the cohesiveness, the 
collaboration that we are all working together is being passed 
along to our partners everyday.
    Ms. West. I would like to talk a bit about the allocations 
that SCORE sends to the districts and chapters. In fiscal year 
2010, two and a half million of the seven million in 
appropriations went to the districts and chapters.
    It is my understanding from previous meetings with Ken 
Yancey and Devin Jopp at SCORE that those allocations are 
determined based on your local services index process.
    And about 20 percent of that determination is related to a 
reserve, a historical funding level; and that in the future, 
you expect for that reserve portion to drop from 20 percent to 
15 percent and ultimately to 10 percent.
    The Maine district SCORE operation really depends on that 
20 percent, and with the new strategic plan focusing more on 
opportunity for new clients and new businesses which is a 
specific metric related to the number of businesses in an area, 
the population of an area, et cetera, we are very concerned 
about that allocation model.
    Can you speak to that, and Ridgely, you might be able to 
jump in here. Can you speak to where you all are up with that 
allocation?
    We are very concerned about the transparency in that. So, 
we heard yesterday that Maine's allocation changed three times 
in three different days, and that determination is made by a 
couple of executives in the SCORE office in Herndon.
    So, there is no transparency in the process and we are 
concerned about how those funds were equitably distributed 
among the SCORE chapters and such. And I hope that it is 
something that you all have addressed in the strategic plan, 
given that there is no guidance whatsoever in the current 
statute related to how funds are distributed to the states and 
chapters, unlike with the other programs. This is an issue of 
concern for us in the reauthorization process.
    Mr. Yancey. I understand. Thank you for the question. If I 
may, may I take one step up and talk to you about the budget 
process and then this piece and how we distribute?
    Ms. West. As long as we spend some time on that.
    Mr. Yancey. I promise I will get to it.
    So, from a SCORE standpoint, the overall budget begins 
certainly in my office, myself, our COO, our director of 
finance.
    Once we have a draft, we negotiate with our finance 
committee within the board of directors. That finance committee 
is made up of two SCORE volunteers and one person from the 
outside, all of whom are board members.
    Once we are through that process, we begin the negotiation 
with our colleagues at SBA, and that is part of our negotiation 
around our technical proposal and what winds up being in our 
notice of award that governs us for the year.
    In that budget process, we recommend an amount that would 
go to the field organization. Once there has been agreement on 
how that money goes out, we do have a formula that we use. The 
formula has changed this year.
    It was developed in conjunction with our advisory council 
which actually Len Sedlin sits on.
    Len, I do not think you were on the council at the time we 
developed the most recent iteration, but this is a group of 
SCORE leaders, district directors, chapter chairs that work 
with Devin and myself, and more specifically Devin, to develop 
what we believe to be an equitable distribution of funds based 
on a number of different factors in the organization.
    Today, what we look at is new cases and follow-ons. So, 
that would be the volume of clients that a chapter sees and the 
number of times that they see that.
    20.25 percent of the budget is distributed based on that. 
We look at our new online cases, the number of clients that we 
serve in an online capacity. 6.75 percent of our budget to the 
field is based on that.
    We then look at local workshop attendance. 18 percent of 
the dollar amount that goes to a district is based on that. The 
reason that is less than new cases is because, as you know, 
most of our workshops actually have a small charge associated 
with them.
    So, in addition to being a service, it is also a revenue 
generator at the chapter level. So, there is a lesser dollar 
amount assigned.
    Then we do look at the market, and we look at coverage 
within the market. 35 percent goes to that coverage. How many 
businesses are there, what is the potential, and the way that 
we measure that potential which is the LSI, or for those of you 
who are not familiar with SCORE, local services index is a 
relative measure of market penetration.
    And what it is based on is the number of clients that we 
serve as compared to, it is the number of clients we serve per 
thousand businesses in the community or the geographic area 
that the chapter has told us they serve.
    So, that is the measure. We do not use the measure in the 
formula. What we do look at is coverage.
    We have kept an adjustment. The first year it has been 20 
percent, and Maine has benefitted specifically from that and 
there are other chapters that have as well.
    Our goal in leaving an amount in reserve was, as we 
implemented in the first year this new formula, there were 
adjustments. There were chapters that received, quite frankly, 
far more than they could put to use in a year, and some 
chapters that would receive far less.
    Maine has been getting these extra funds even before we 
implemented this particular process. Maine did and all of our 
chapters did get three different allocations in two days. It 
was an error on staff's part which means that it is my 
responsibility and it is error on my part.
    That has been addressed. We have a remarkable staff that 
works very hard with an incredible volume of work; and in that 
particular instance, we have someone now that we believe is 
going to help us be better stewards and better communicators of 
what we do.
    So, my intent in no way is to be anything less than 
transparent. This year for I believe the first time we actually 
distributed this formula to our field organization.
    In the past, we had not been transparent and we knew we 
needed to. As we moved into our new plan and with one of our 
overarching goals to be one strong nationwide organization we 
need to be transparent.
    Not everybody liked the process and not everybody likes the 
result. The good news about the plan, and this is part of it, 
is that we have continued to learn what we have done well, what 
we have not done well, where we can adjust and improve; and as 
we have learned that, I think that our district directors that 
are here and our volunteers around the country will tell you 
that we continue to adjust.
    What I will tell you right now is I do not have a plan to 
change the allocation this year and I do not have it today 
because we really have not spent the time dialoging with our 
advisory council and talking a little bit about it.
    As you know, Meredith, we have a monthly district directors 
conference call. We use that to communicate and vet and learn 
and exchange and share best practices.
    This will be something that is on that call. We will share 
with you the process and all the input. I will step back up 
again.
    My challenge is that the pie I am trying to spice up is too 
small. I need a bigger pie. If I can find a bigger pie, my 
ability to fund these organizations at the chapter level, at 
the district level, and allow them to become more successful 
and to service the pent up demand that is there that we know, 
it is going to be far better.
    Until then, we need to deliver a level of service from the 
national office and that competes with what we want to send to 
the chapters, and therein lies the challenge, and we do what we 
can to buffer that with private sector funds, most of those 
raised at the chapter level, as Len mentioned getting a grant 
from Louisiana Economic Development.
    It is a challenge. So, what I would pledge to you is I am 
happy to sit down, have a dialog around this, make sure that we 
have heard everything, be completely transparent in the 
responses that we get, and work through this in a manner that 
you will absolutely understand.
    I am not sure that at any point in time we are all going to 
agree on exactly how this needs to look but we will get close.
    Ms. West. I will say the Ranking Member is very concerned 
about this issue and, in fact, is her biggest issue with 
reauthorization of the SCORE program because of our concerns 
that the Maine chapter has raised.
    If we are looking at including any portion of the national 
expansion plan and reauthorization and increasing authorization 
levels in any way, she is going to make sure that Maine gets 
their fair share of the funding; and so, the fact that the 
reserve portion of the allocation is declining is problematic 
for us.
    Mr. Yancey. May I have one more quick comment? Loud and 
clear. I completely understand. May I offer to add either Nancy 
or Neal to our National Advisory Council for the specific 
purpose of helping us deal appropriately with this issue.
    Ms. West. We would very much appreciate that but I defer to 
these very busy individuals.
    Mr. Yancey. Which one of you said yes? Now is the time to 
volunteer.
    Ms. West. All right, Nancy, thank you.
    Mr. Evers. I think what you heard in that answer is one of 
the things that attracted me to SCORE. There are a lot of 
things that we do not have answers to yet. What I really love 
is the determination to experiment and to figure it out.
    You guys are our customer. If you look at what is SCORE's 
revenue source, it is you. So if we are not doing what you need 
us to do, that matters. We need to listen, and we need to 
listen hard. We need to make sure that you understand, and this 
gets back to the whole transparency thing. We need to make 
sure. We have an obligation to ourselves. We have an obligation 
to our volunteers. We have obligations to you to be totally 
open about how we do this.
    And at least to my knowledge, there is no, it is not like 
the reserve fund is being held in some sort of, you know, 
punitive or reward kind of our fashion. It is just, we may have 
gotten this wrong. Right?
    If you have got a household budget, you keep a little bit 
of reserve because you were not counting on needing a new 
muffler, and I think that is a way to look at that.
    As we dial this in better and get a better handle on how do 
we allocate funds, then we can, nobody wants a reserve. It is 
not a good thing except for potentially the rainy day part of 
it.
    But it is really about navigating through, okay, how do we 
best do this. I think everybody in here who is getting all the 
money that they want for everything they want to do, please 
raise their hand. Anybody? No.
    That is really the issue that we are dealing with is trying 
to sort through that.
    Ms. Sanchez. I know we are quickly running out of time.
    Len, did you have something you wanted to add?
    Mr. Sedlin. Just a comment from one of the guys on the 
other end of this discussion here on getting the funds, I would 
caution that there not be a formula written into the 
legislation that dictates this.
    It is strictly a management decision based on the input of 
the worker bees who are going to make that decision and how we 
use it is up to the directors within the guidelines that are 
presented by our association.
    So, we have to have some flexibility as business people to 
make sound decisions. Thank you.
    Ms. Sanchez. Thank you, Len.
    I actually have one question from the Senator. She wanted 
me to get this on the record before we close. This is for Ron 
and you, Len, and anyone else who wants to chime in.
    She wanted to get a sense from you on the ground in terms 
of what you are seeing from small business lending. Are lines 
of credit easing up at all? Are you seeing any kind of 
positivity as a result of the things that are happening 
recently and what is the temperature right now in that 
environment?
    Mr. Weiss. If I can, it is tight. Most of the SBA program 
funding, banks are still insisting on guarantees; and despite 
the efforts of the SBA to make it better, the banks are not 
responding.
    Most sourcing for funds comes from small local banks, 
people who are economic development centers who are willing to 
give it, even the cities themselves.
    The city of Nashua gave a client of mine the $50,000 loan 
just to complete his import so he could stay in business for 
the rest of the year.
    But that is where the money is coming from. And it is not 
coming from the major banks or the regional banks. It is tight. 
Money is tight.
    Ms. Sanchez. In closing, I just want to say this is a 
really important program and issue for Chair Landrieu. She has 
really done, I think, a tremendous amount of work to get us to 
this point in working with SCORE, with SBA to be able to ask 
the tough questions that we need to ask and hopefully get 
adequate answers.
    I know it is no small trek for some of you to be here. So, 
we really appreciate each and everyone of you who joined us 
today and we absolutely look forward to working together with 
you in the future as we put together a legislative proposal 
containing SCORE's reauthorization. Thank you.
    [Whereupon, at 11:47 a.m., the roundtable adjourned.]


                                  [all]

</pre></body></html>
